                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              LOUISIANA MAY HAVE PAID AT LEAST $3.7 MILLION IN
                                              HURRICANE-RELATED UNEMPLOYMENT CLAIMS BASED
                                              ON CLAIMANTS USING INVALID SOCIAL SECURITY
                                              NUMBERS




                                                                         Date Issued:   March 6, 2007
                                                                         Report Number: 06-07-001-03-315
U.S. Department of Labor                                March 2007
Office of Inspector General
                                                        LOUISIANA MAY HAVE PAID AT LEAST
Office of Audit                                         $3.7 MILLION IN HURRICANE-RELATED
                                                        UNEMPLOYMENT CLAIMS BASED ON
BRIEFLY…                                                CLAIMANTS USING INVALID SOCIAL
                                                        SECURITY NUMBERS
Highlights of Report Number: 06-07-001-03-315,
to the Employment and Training Administration.          WHAT OIG FOUND
                                                        The OIG found the LDOL paid benefits (amounts
WHY READ THE REPORT                                     rounded) on DUA and UC claims processed with
On August 29, 2005, Hurricane Katrina hit the           SSNs that:
Louisiana, Mississippi, and Alabama coasts,
resulting in a national disaster. A national                •   Were never issued - $315,000
emergency was declared, making disaster                     •   Belonged to deceased persons - $661,000
unemployment assistance (DUA) available to                  •   Did not match the names of the individuals
residents of the affected areas who lost their jobs,            assigned those numbers - $3.1 to $6.9
or were unable to return to their jobs as a result of           million
Hurricane Katrina, if they did not qualify for State
unemployment compensation (UC). Additionally,           In its response to our draft report, LDOL agreed to
on September 23, 2005, Hurricane Rita hit the           commit itself to continuing investigations to identify
Texas and Louisiana coasts, resulting in another        persons responsible for fraudulently obtaining
national emergency declaration on September 24,         DUA and UC benefits and to seek recovery of
2005.                                                   overpayments. Additionally, LDOL agreed to work
                                                        with the Employment and Training Administration
Because of the emergency nature of the                  (ETA) to develop data sharing agreements to
Hurricanes, Louisiana suspended controls over           begin utilizing the Death Master File, and to
authenticating DUA claimants’ identities when           implement a real–time connection with the Social
processing claims. This report discusses the            Security Administration (SSA).
impact of Louisiana’s decision to suspend these
controls.                                               WHAT OIG RECOMMENDED
                                                        We recommend that the Assistant Secretary for
WHY OIG DID THE AUDIT
                                                        Employment and Training:
The Office of Inspector General (OIG) conducted
this audit to answer two questions: (1) What            1. Ensure the Louisiana Department of Labor
financial impact did claimants using invalid Social     (LDOL) continues investigations to identify
Security Numbers (SSNs) for Hurricanes Katrina-         persons who fraudulently obtained DUA and UC
and Rita-related claims have on DUA and UC in           benefits.
the State of Louisiana; and (2) What lessons were       2. Work with LDOL to periodically obtain the
learned following the hurricanes that would assist      Death Master File to ensure benefits are not paid
Louisiana and other State Workforce Agencies            on claims containing SSNs assigned to deceased
(SWAs) to effectively and efficiently distribute        individuals.
benefits during a catastrophic event?                   3. Ensure LDOL implements a real-time
                                                        connection with SSA to mitigate the risks of
READ THE FULL REPORT                                    identity theft.
To view the report, including the scope,                4. Promote the use of the real time connection
methodology, and full agency response, go to:           with SSA by SWAs not currently participating
                                                        under the Memorandum of Understanding
http://www.oig.dol.gov/public/reports/oa/2007/06-       between the ETA and SSA.
07-001-03-315
                                         Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                            Unemployment Claims Based on Claimants Using Invalid SSNs



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

FINDINGS AND RECOMMENDATIONS ........................................................................ 8

LDOL paid benefits on DUA and UC claims processed with SSNs that:
SSA never issued; belonged to deceased persons; or did not match
the names of the individuals to whom SSA assigned the numbers ......................... 9

   LDOL paid $314,913 on 186 DUA and UC claims processed with
   SSNs the SSA never issued...................................................................................... 9

   LDOL paid $661,293 on 317 DUA and UC claims processed with
   SSNs that belonged to deceased persons .............................................................. 9

   LDOL paid an estimated $3.1 to $6.9 million on DUA and
   UC claims with SSNS that did not match the names of the
   individuals assigned those numbers..................................................................... 10

A real-time connection to SSA’s database is an effective tool in identifying for
further investigation claims processed with invalid SSNs, during normal
operations and following catastrophic events ......................................................... 12

EXHIBITS ..................................................................................................................... 15
   A. LDOL Claims Referred to OLRFI for Further Investigations of Fraud ............ 17
   B. Summary of Statistical Projections, Mismatched Names-SSNs ..................... 19

APPENDICES ............................................................................................................... 21
   A. Background ......................................................................................................... 23
   B. Objectives, Scope, Methodology, and Criteria ................................................. 25
   C. Acronyms and Abbreviations ............................................................................ 29
   D. Agency Response ............................................................................................... 31




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs




                        THIS PAGE INTENTIONALLY LEFT BLANK




2                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




Executive Summary
Following Hurricanes Katrina and Rita, controls normally used to verify the identity of
persons filing for unemployment benefits were temporarily suspended to expedite the
delivery of assistance to qualified individuals. Due to the massive evacuation of people
from Louisiana, individuals applying for Katrina- and Rita-related unemployment
benefits did so in person, by phone, and by Internet from all across the country.
Consequently, the Louisiana Department of Labor (LDOL) had no means of confirming
that persons seeking benefits were who they claimed to be.

Objectives
We conducted a performance audit to answer the following questions:

     1. What financial impact did claimants using invalid Social Security Numbers
        (SSNs) for Hurricanes Katrina- and Rita-related claims have on Disaster
        Unemployment Assistance (DUA) and Unemployment Compensation (UC) in
        the State of Louisiana?

     2. What lessons were learned following Hurricanes Katrina and Rita that would
        assist LDOL and other State Workforce Agencies (SWAs) to effectively and
        efficiently distribute benefits during a catastrophic event?

Results
Louisiana paid DUA and UC benefits against SSNs that (1) the Social Security
Administration (SSA) never issued; (2) belonged to deceased individuals; or (3) did not
match the name of the person to whom the SSA assigned that number. We estimate,
with 95 percent confidence, that benefits paid on these claims total between $3.7 and
$6.1 million. This estimate includes $1,076,098 of actual overpayments to 554
individuals specifically identified as a result of our procedures, and a scientific estimate
of $2.7 to $5.1 million based on a random sample of 317 individuals from a population
of 13,495 for which SSA indicated a name/SSN mismatch with LDOL’s claims records.

Although a real-time connection to SSA’s database is available to SWAs as a tool to
confirm the validity of information claimants provide before claims are established,
LDOL elected not to implement this process in its claims system. We believe that, had
this process been in place, it would have been an effective compensating control in
identifying for further investigation claims processed with invalid SSNs.

Auditee Response
In response to our draft report, LDOL committed itself to continuing investigations to
identify persons responsible for fraudulently obtaining DUA and UC benefits and to seek
recovery of overpayments. Additionally, LDOL agreed to work with the Employment

U.S. Department of Labor—Office of Inspector General                                           3
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

and Training Administration (ETA) to develop data sharing agreements to begin utilizing
the Death Master File and to implement a real–time connection with SSA. LDOL’s
entire response is included in Appendix D.

OIG Conclusion
Based on LDOL’s response, we consider its intention to be sufficient and will close
these issues once our follow-up procedures confirm that these corrective actions have
been appropriately implemented, subject to Grant Officer concurrence.

Our findings remain the same as presented in the draft report. However, revisions have
been made throughout the report to clarify that a real time connection with SSA will
identify claims with invalid SSNs for further investigation. We have also clarified that
further investigation is needed for claims we identified with invalid SSNs in order to
make an actual determination of fraud or the amount of overpayments that need to be
recovered.

Recommendations

    We recommend that the Assistant Secretary for Employment and Training:

    1.   Ensure that LDOL continues investigations to identify persons who fraudulently
         obtained DUA and UC benefits. The State should conduct investigations to
         determine whether $1,076,098 of benefits paid to 554 claimants specifically
         identified as a result of our procedures should be recovered, and work with the
         Office of Inspector General’s (OIG) Office of Labor Racketeering and Fraud
         Investigations (OLRFI) to prosecute those found to be in violation of state or
         Federal laws.

    2.   Work with LDOL to periodically obtain the Death Master File from the U.S.
         Department of Commerce (USDOC) to ensure unemployment benefits are not
         paid on claims containing SSNs assigned to deceased individuals.

    3.   Ensure LDOL takes steps to safeguard its UC program, as well as comply with
         sections 303(a)(1) and 1137(a)(1) of the Social Security Act, to minimize
         overpayments, fraud, and abuse through the implementation of a real-time
         connection with SSA. This process will also mitigate the risks of identity theft
         and problems with fabricated documents during normal operations, as well as
         during catastrophic events.

    4.   Promote the use of the real time connection with SSA by SWAs not currently
         participating under the MOU between ETA and SSA.




4                                               Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210


                         Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training

Following the devastating impact Hurricanes Katrina and Rita had on the Gulf Coast
Region, the OIG began oversight of key Federal programs to identify and assist the U.S.
Department of Labor (USDOL), along with its grantees, in minimizing waste, fraud, and
abuse.

Because of the massive evacuation of people from Louisiana, individuals applying for
Katrina- and Rita-related unemployment benefits did so in person, by phone, and by
Internet from all across the country. Therefore, an area of concern to OIG was the
potential for identity theft for the purposes of receiving unemployment benefits.

We conducted a performance audit to answer the following questions:

     1. What financial impact did claimants using invalid SSNs for Hurricanes Katrina-
        and Rita-related claims have on DUA and UC in the State of Louisiana?

     2. What lessons were learned following Hurricanes Katrina and Rita that would
        assist the LDOL and other SWAs to effectively and efficiently distribute benefits
        during a catastrophic event?

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology, and
criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                          5
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs


Findings and Recommendations

Objective 1 What financial impact did claimants using invalid SSNs for
 Hurricanes Katrina- and Rita-related claims have on DUA and UC in the State of
 Louisiana?



We designed our audit procedures to provide reasonable assurance of detecting illegal
acts; however we cannot provide any assurance that all potentially fraudulent claims
have been identified. Our results indicate that between September 10, 2005, and June
3, 2006, LDOL paid an estimated $3.7 million to $6.1 million on 1,632 to 2,713 DUA and
UC claims that were processed with invalid SSNs. This estimate includes $1,076,098 of
benefits paid to 554 individuals whom we have referred to OLRFI (see findings 1A, 1B,
and 1C), and a scientific estimate of $2.7 to $5.1 million, based on a random sample of
claims where the name and SSN used in claims did not agree (see finding 1C). A
summary of hurricane-related claims identified as containing invalid SSNs can be found
in Exhibit A. Each of these claims warrants further investigation for fraud and has been
referred to LDOL and OLRFI.

Fraudulently using another person’s SSN is a criminal violation that could result in fines
and/or imprisonment. The Identity Theft and Assumption Deterrence Act (Public Law
105-318) has made it a federal crime when anyone:

       … knowingly transfers or uses, without lawful authority, a means of
       identification of another person with the intent to commit, or to aid or abet,
       any unlawful activity that constitutes a violation of Federal law, or that
       constitutes a felony under any applicable State or local law.

In accordance with Code of Federal Regulations, Title 20, Section 625.14(a), which
specifically addresses a state’s responsibility in regards to payments made to those not
entitled to DUA benefits, LDOL has an obligation to identify those responsible for these
crimes and recover funds:

       If the State agency of the applicable State finds that an individual has
       received a payment of DUA to which the individual was not entitled under
       the Act and this part, whether or not the payment was due to the
       individual's fault or misrepresentation, the individual shall be liable to
       repay to the applicable State the total sum of the payment to which the
       individual was not entitled, and the State agency shall take all reasonable
       measures authorized under any State law or Federal law to recover for the
       account of the United States the total sum of the payment to which the
       individual was not entitled.

6                                               Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




LDOL paid benefits on DUA and UC claims processed with SSNs that: SSA never
issued; belonged to deceased persons; or did not match the names of the
individuals to whom SSA assigned the numbers.

Our procedures indicated that $1,076,098 of DUA and UC benefits were paid to 554
individuals who used an invalid SSN to obtain assistance.

   A. LDOL paid $314,913 on 186 DUA and UC claims processed with SSNs the
      SSA never issued.

We worked with LDOL’s Information Technology (IT) Division to have claims resulting
from Hurricanes Katrina and Rita sent to the SSA to verify claims information. As a
result, 186 claims, with benefits totaling $314,913 as of June 3, 2006, were identified as
having a SSN never issued by SSA.

   B. LDOL paid $661,293 on 317 DUA and UC claims processed with SSNs that
      belonged to deceased persons.

Using the Death Master Files maintained by USDOC, which is a compilation of vital
statistics on deceased persons reported to the SSA, we matched this data against
Louisiana’s hurricane-related DUA and UC claims and found that:

       ¾ $642,250 was paid on 307 claims using SSNs belonging to persons reported
         to have died prior to Hurricane Katrina hitting the Gulf Coast Region on
         August 29, 2005.
         • $621,338 was paid on 299 claims where the claimant’s name did not
             agree with the name reported in the Master Death File.
         • $20,912 was paid on 8 claims where the names did match.

       ¾ $19,043 was paid on 10 claims for weeks of unemployment that occurred
         after the claimant’s death. These claimants were reported to have died after
         Hurricane Katrina hit the Gulf Coast Region on August 29, 2005.
         • $11,889 was paid on 7 claims where the claimant’s name agreed with the
             name in the Master Death File.
         • $7,154 was paid on 3 claims where the names did not agree.

LDOL has never used the Master Death File to ensure their UC benefits were paid to
legitimate claimants. Our cost to obtain this file was $1,730, which is a minimal
expense when compared to the savings that could have resulted if the above
overpayments were timely detected.




U.S. Department of Labor—Office of Inspector General                                          7
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

    C. LDOL paid an estimated $3.1 to $6.9 million on DUA and UC claims with
       SSNs that did not match the names of the individuals assigned those
       numbers.

Of the claims LDOL sent to SSA to confirm the validity of the claims’ information,
$32,741,485 of benefits was paid to 13,495 claimants identified as having an SSN and
name combination that did not agree with SSA’s records. We asked SSA to provide us
the names assigned to those SSNs, but they were unable to do so due to privacy
restrictions and technical barriers. Therefore, we had to apply alternative procedures to
understand why so many claims had a name/SSN combination that did not match
according to SSA’s records.

From a universe of the 13,495 claimants, we randomly selected 317 individuals using a
confidence level of 95 percent, an expected error rate of zero percent, and a precision
interval of (+/-) 5 percent.

We provided the SSNs of these 317 individuals to OLRFI and received back information
that enabled us to validate the SSN/name combination for 254 individuals
(approximately 80 percent), as follows:

    ¾ 84 (26.5 percent) were related to name formatting problems (first and last names
      were not in the correct fields in LDOL’s claims system).

    ¾ 65 (20.5 percent) were related to a name change (multiple surnames were
      identified for the claimants).

    ¾ 62 (19.6 percent) were related to claims where the name and SSN did match.
      (We do not know why the SSA match indicated a name/SSN mismatch.).hich
      specifically addresses a
      S



    ¾ 43 (13.6 percent) were related to names that were spelled differently in LDOL’s
      claims system.

However we confirmed that 51 (16.1 percent) claimants who were paid $99,892 of
benefits in fact used a SSN/name combination that did not match the names of the
individuals to whom SSA assigned the SSNs. Based on this sample result, we
estimate, with 95 percent confidence, that between $2,738,380 and $5,134,873 was
paid to between 1,632 and 2,713 claimants where the SSN used in the claims was
assigned to someone other than the claimant. The point estimate of the dollar value
of such payments is $3,963,626.

We were unable to validate the names assigned to the SSNs used in 12 (3.8 percent)
claims with benefits that totaled $26,520. The alternative procedures used to validate to
8                                               Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




whom these numbers belong did not produce sufficient evidence that allows us to
conclude on the legitimacy of these claims.

Based on these sample results, we estimate, with 95 percent confidence, that the
amount of benefits paid on claims where we were not able to conclude on the claims’
validity was between $425,970 and $1,758,600. The point estimate of the dollar value
of such payments is $1,092,285. Because we could not obtain sufficient data to confirm
the validity of these claims, we did not include the estimate from the results of this
sample in the amount of benefits we project LDOL paid on claims where the SSN used
was assigned to someone other than the claimant.

Auditee Response
In response to our draft report, LDOL committed itself to continuing investigations to
identify persons responsible for fraudulently obtaining DUA and UC benefits and to seek
recovery of overpayments. Additionally, LDOL agreed to work ETA to develop data
sharing agreements to begin utilizing the USDOC Death Master File. LDOL’s entire
response is included in Appendix D.

OIG Conclusion
Based on LDOL’s response, we consider its intention to be sufficient and will close
these issues once our follow-up procedures confirm that these corrective actions have
been appropriately implemented, subject to Grant Officer concurrence.

Our findings remain the same as presented in the draft report. However, revisions have
been made throughout the report to clarify that further investigation is needed for claims
we identified with invalid SSNs in order to make an actual determination of fraud or the
amount of overpayments that need to be recovered.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. Ensure that LDOL continues investigations to identify persons who fraudulently
      obtained DUA and UC benefits. The State should conduct investigations to
      determine whether the $1,076,098 of benefits paid to 554 claimants specifically
      identified as a result of our procedures should be recovered, and work with the
      OIG’s OLRFI to prosecute those found to be in violation of state or Federal laws.

   2. Work with LDOL to periodically obtain the Death Master File from USDOC to
      ensure unemployment benefits are not paid on claims containing SSNs assigned
      to deceased individuals.



U.S. Department of Labor—Office of Inspector General                                          9
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

Objective 2 What lessons were learned following Hurricanes Katrina and Rita
            that would assist LDOL and other SWAs to effectively and efficiently
            distribute benefits during a catastrophic event?



A real-time connection to SSA’s database is an effective tool in identifying for
further investigation claims processed with invalid SSNs, during normal
operations and following catastrophic events.

LDOL’s procedures are not effective in confirming that persons filing for benefits are
who they claim to be and preventing benefits from being paid on claims using false
information, particularly following catastrophic events such as Hurricanes Katrina and
Rita. Although controls requiring claimants to present documentation as proof of their
identity were temporarily suspended following the hurricanes, LDOL still had an
obligation to ensure UC and DUA benefits were paid to valid claimants.

Under normal circumstances, it would be reasonable to expect LDOL to have some
means of confirming the identity of its claimants. Reviewing documentation from
claimants as the sole means of confirming their identity is not sufficient in preventing or
detecting possible instances of fraud, and does not comply with sections 303(a)(1) 1 and
1137(a)(1) 2 of the Social Security Act (the Act). ETA issued a program letter in June
1995 interpreting these sections of the Act to mean that states must have a system to
reasonably ensure the names and SSNs used to establish eligibility for unemployment
benefits belong to the individual filing for benefits. Therefore, it is essential that LDOL,
along with other SWAs, utilizes the real-time connection with SSA as a compensating
control in confirming that persons receiving benefits are who they claim to be.

To combat fraud and abuse in the UC program, ETA has established a memorandum of
understanding (MOU) with SSA that allows SWAs real-time access to SSA’s database
to confirm the validity of information used to file for benefits. Through the Interstate
Connection Network system, information in participating states’ claims is checked
against SSA's database, which identifies discrepancies when claims are initiated.
Fifteen SWAs have embedded this real-time connection in their claims system and
noted how effective it has been in preventing fraud. The first two states to do so, Utah



       1
         “Such methods of administration . . . as are found by the Secretary of Labor to be reasonably
       calculated to insure full payment of unemployment compensation when due.”
       2
         “The State shall require, as a condition of eligibility for benefits under any program listed in
       subsection (b), that each applicant for or recipient of benefits under that program furnish to the
       State his social security account number (or numbers, if he has more than one such number),
       and the State shall utilize such account numbers in the administration of that program so as to
       enable the association of the records pertaining to the applicant or recipient with his account
       number.”

10                                                  Department of Labor—Office of Inspector General
                                                                   Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




and Wisconsin, reported the implementation cost to be around $50,000 in 2002,
according to UI Program Letter No. 29-02.

ETA has, on several occasions, made funding available to SWAs to assist in the
implementation of the real-time connection with SSA. However, LDOL decided not to
accept this funding because it had recently upgraded the State’s claims system and felt
it was too soon to add this new function. In addition, LDOL’s management did not
believe they had sufficient resources or the budget to adhere to SSA’s specifications to
ensure its system had sufficient controls to protect the data being exchanged.

Instead, LDOL has continued to use a manual process that has proven to be inefficient
and ineffective in detecting erroneous SSNs. On a weekly basis, LDOL submits a batch
of its claimants’ information to SSA for verification. SSA verifies this data, and returns
the results to LDOL in a data file. LDOL then prints the results on paper and destroys
the data file. During one of our visits to LDOL’s office, we found the SSA results in
reports stacked approximately 5-feet high in a corner. While LDOL managers informed
us they did not have the resources to adequately sort through these reports, they did
indicate a scan of these documents revealed 16 claims that had SSNs never issued by
SSA. This number is far less than the 186 claims we identified in our audit.

LDOL does not have the staff to adequately review hardcopy reports produced from the
manual SSA verification, and identify and collect on potentially fraudulent claims. The
advantage of a real-time connection with SSA is that LDOL, as well as other SWAs, are
taking a proactive approach to identify and address fraud when claims are initiated. Not
only will SWAs benefit from the reduction of overpayments on these fraudulent claims,
but the reduction of staffing and operating costs to investigate such claims can be a
significant savings. Therefore, we conclude that the cost of a real-time connection with
SSA is minimal, particularly following a catastrophic event such as Hurricanes Katrina
and Rita.

Auditee Response
In response to our draft report, LDOL agreed to work with ETA to implement a real–time
connection with SSA. LDOL’s entire response is included in Appendix D.

OIG Conclusion
Based on LDOL’s response, we consider its intention to be sufficient and will close this
issue once our follow-up procedures confirm that the corrective actions have been
appropriately implemented, subject to Grant Officer concurrence.

Our findings remain the same as presented in the draft report. However, revisions have
been made throughout the report to clarify that a real time connection with SSA will
identify claims with invalid SSNs for further investigation.


U.S. Department of Labor—Office of Inspector General                                         11
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

     3. Ensure LDOL takes steps to safeguard its UC program, as well as comply with
        sections 303(a)(1) and 1137(a)(1) of the Social Security Act, to minimize
        overpayments, fraud, and abuse through the implementation of a real-time
        connection with SSA. This process will also mitigate the risks of identity theft and
        problems with fabricated documents during normal operations, as well as during
        catastrophic events.

     4. Promote the use of the real time connection with SSA by SWAs not currently
        participating under the MOU between ETA and SSA.




Elliot P. Lewis
June 3, 2006




12                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




Exhibits




U.S. Department of Labor—Office of Inspector General                                         13
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs




                        THIS PAGE INTENTIONALLY LEFT BLANK




14                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                                   EXHIBIT A


         LDOL Claimants Referred to OLRFI for Further Investigations of Fraud



                             Finding No.               Number of            Benefits Paid
                                                       Claimants


Claimants with SSNs
never issued by SSA               1A                     186                         $314,913



Claimants with SSNs
belonging to deceased             1B                     317                         $661,293
persons


Claimants with SSNs
belonging to others               1C                      51                          $99,892


Totals                                                   554                       $1,076,098




U.S. Department of Labor—Office of Inspector General                                         15
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs




                        THIS PAGE INTENTIONALLY LEFT BLANK




16                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                                  Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                     Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                                             EXHIBIT B

                              Summary of Statistical Projections
                                 Mismatched Names-SSNs


    Sampling Parameters                 Mismatched Names                Unable to Validate Names

Universe Size-Claimants                                      13,495                               13,495

Sample Size-Claimants                                           317 4                               3172

Point Estimate                                          $3,936,626                          $1,092,285

Sampling Error                                            $611,350                             $339,957

Lower Limit- 95%                                        $2,738,380                             $425,970
Confidence Level
Upper Limit- 95%                                        $5,134,873                          $1,758,600
Confidence Level




4
  We randomly selected a sample of 317 claimants, based on individual SSNs. Since many claimants
received benefits from multiple programs, the projection of benefits paid is based on 368 separate claims.

U.S. Department of Labor—Office of Inspector General                                                   17
Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs




Appendices




U.S. Department of Labor—Office of Inspector General                                         19
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs




                        THIS PAGE INTENTIONALLY LEFT BLANK




20                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                                APPENDIX A
BACKGROUND


Hurricanes Katrina and Rita devastated the Gulf Coast Region on August 29, 2005, and
September 24, 2005, respectively, resulting in numerous local employers being forced
out of business. Declared a disaster area, parts of Louisiana were faced with an
unprecedented number of unemployed workers who turned to the Federal-state UC
program as a source of income. The UC program offers the first economic line of
defense against the ripple effects of unemployment, while ensuring payments made
directly to eligible, unemployed workers are available for a significant proportion of life’s
necessities, most notably food, shelter, and clothing.

Those unemployed as a result of Hurricanes Katrina and Rita were eligible for one of
two unemployment benefits programs. The first, State UC, provides benefits to eligible
workers who are unemployed through no fault of their own, and meet eligibility
requirements established by their states. UC benefits are state funded. The second,
DUA, provides financial assistance to individuals whose employment or self-
employment has been lost or interrupted as a direct result of a major disaster declared
by the President of the United States. Before an individual can be determined eligible
for DUA, it must be established that the individual is not eligible for regular UC benefits.
DUA is federally funded.

As of June 3, 2006, LDOL paid $893,650,505 in DUA and UC benefits on 362,451
claims related to Hurricanes Katrina and Rita. The actual number of claimants affected
by this disaster is 304,172, and differs from the number of claims because several
claimants received both UC and DUA; i.e., if claimants received all of their regular UC
benefits and continued to be unemployed as a result of the disaster, they could receive
additional DUA benefit through June 3, 2006, for Katrina-related claims, and through
June 24, 2006, for Rita-related claims.

          Program                    Number of Claims                   Benefits Paid
 Katrina DUA                                      140,809                   $ 297,614,222
 Katrina UC                                       196,089                   $ 562,538,968
 Rita DUA                                           8,468                   $ 10,050,379
 Rita UC                                           17,085                   $ 23,446,936

Many of those affected by the hurricanes were forced to leave their homes without their
personal possessions. Since most people had no documentation to verify their identity,
and there was an immediate need for assistance, controls normally used to confirm the
identity of those seeking UC and DUA benefits were suspended by LDOL.

Following Hurricanes Katrina and Rita, LDOL--with support from ETA and other
volunteer SWAs--streamlined the enrollment process for Louisiana’s unemployment


U.S. Department of Labor—Office of Inspector General                                         21
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

compensation programs, expediting the delivery of benefits to those desperately in need
of assistance.

Since controls used to verify the identity of claimants were temporarily suspended,
LDOL had no other effective means of verifying that persons filing for benefits were who
they claimed to be. Some individuals misused SSNs to acquire UC and DUA and, we
now know by the arrest of a number of individuals thus far, that it took little effort to file a
fictitious claim following the hurricanes. For example, one individual was able to do so,
and received over $32,000 in benefits on more than 40 claims by sequentially changing
the numbers in the SSNs used to file these claims.




22                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                                 Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                    Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                                      APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Following Hurricanes Katrina and Rita, LDOL was unable to effectively confirm whether
persons filing for benefits were who they claimed to be. In order to have some
assurance that persons receiving DUA and UC benefits were legitimate claimants, as
well as assist LDOL in the recovery of losses resulting from fraud, waste, and abuse, we
conducted a performance audit to answer the following questions:

     1. What financial impact did claimants using invalid SSNs for Hurricanes Katrina-
        and Rita-related claims have on DUA and UC in the State of Louisiana?

     2. What lessons were learned following Hurricanes Katrina and Rita that would
        assist LDOL and other SWAs to effectively and efficiently distribute benefits
        during a catastrophic event?

Scope

This audit covers UC and DUA benefits LDOL paid as a result of Hurricanes Katrina and
Rita, with our focus on the potential fraud perpetrated by persons misusing SSNs to
acquire UC benefits. Our audit period was benefits paid for the weeks ending
September 10, 2005, through June 3, 2006. 4 Our work was completed at LDOL’s
central administrative offices in Baton Rouge, Louisiana, and through analysis of LDOL
electronic claims files in our Denver Office. Our fieldwork was performed from January
through June 2006.

Because of the emergency nature of the Hurricane Katrina disaster, Louisiana’s controls
over authenticating DUA claimants’ identities were basically nonexistent. The President
pledged to provide hurricane victims access to streamlined registration and enrollment
in Federal benefit programs for which they qualified. Subsequently, the Office of
Management and Budget (OMB) provided implementation policy intended to “ensure a
citizen-centered approach in a cost-effective manner that prevents fraud and abuse.”
The OMB further provided that, to eliminate improper payments, “All new procedures
that relax prepayment eligibility verification procedures should be time-limited.” As a
result, our procedures were designed to identify the impact of LDOL’s suspension of
internal controls for authenticating the identities of claimants.




4
  Hurricane Katrina benefits ended the week ending June 3, 2006. Hurricane Rita benefits were payable
through the week ending June 24, 2006. We only included benefits in this audit through June 3, 2006.
 U.S. Department of Labor—Office of Inspector General                                                23
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

This work was intended to assess the effect of the absence of internal controls
regarding the authentication of UC claimants’ identities; accordingly, tests of internal
controls were not applicable.

Methodology

We conducted the following procedures:

     ¾ Gained an understanding on how UC and DUA claims were initiated and
       processed in Louisiana.

     ¾ Worked with LDOL to send hurricane-related claims to SSA to confirm whether
       SSNs used to process 395,643 claims agreed with the names provided.
       Eliminating those claims that did not receive hurricane-related payments as of
       June 3, 2006, LDOL paid benefits to 304,172 claimants (based on the number of
       SSNs). SSNs for 301,765 were checked with SSA; however 2,407 were not
       checked since payments for these claims were processed after we completed
       our fieldwork. This procedure was conducted through LDOL’s IT Division that, on
       our request, sent all hurricane-related claims information to SSA. We took steps
       to test the validity of the results by sending a sample of the claims directly to
       SSA. SSA confirmed the results from our sample were accurate; therefore, we
       concluded the SSN verification results for our entire population were valid.

     ¾ Analyzed information obtained from OLRFI for a sample of 317 claims to
       determine whether the name and SSN used to pay DUA and UC benefits agreed.

     ¾ Coordinated with OIG’s statistician to project the amount of possible fraud
       resulting from claims with SSNs that did not agree with the name used in the
       claims.

        Because we used probability procedures based on random selections, our
        sample was only one of a large number of samples that we might have drawn.
        Since each sample could have provided different estimates, we express our
        confidence in the precision of our particular sample’s results as a 95 percent
        confidence interval. As a result, we are 95 percent confident that the projected
        confidence interval in this report represents the true values of the population.

     ¾ Based our sampling plan on the following:

             •   Population:                13,495 claimants (individual SSNs)
             •   Confidence Level:          95 percent (2-sided)
             •   Precision Interval:        +5
             •   Acceptable Error Rate:     0 percent
             •   Sample Size:               317

24                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                             Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                Unemployment Claims Based on Claimants Using Invalid SSNs

       Although the sample was selected to determine whether the claimant name and
       SSN was acceptable or irregular (attributes), our evaluation of the sample
       included estimating the benefits paid on irregular claims (variables). This
       resulted in the confidence interval and sampling error presented in Exhibit B.

   ¾ Obtained and reviewed USDOC’s Master Death File to identify claims processed
     using SSNs assigned to deceased persons.

       We assessed the reliability of the Master Death File obtained from USDOC by
       confirming that a random sample of the SSNs identified as belonging to
       deceased individuals were on the Social Security Death Index (SSDI). Our
       review showed that all SSNs selected were on the SSDI; therefore, we
       concluded that the data in the Master Death File were valid.

   ¾ Reviewed LDOL’s payment file, as of June 3, 2006, to quantify the financial
     impact claims identified in the above procedures as using invalid SSNs had on
     Louisiana’s UC and DUA programs.

       We assessed the reliability of LDOL’s claims data by comparing (1) the UC totals
       from LDOL’s claims system, (2) the total recorded in LDOL’s accounting records
       for these claims, and (3) drawdowns made on ETA DUA Grants. We identified
       discrepancies in these amounts, which LDOL indicated were the result of timing
       differences in recording journal entry adjustments in its accounting records, and
       updates needed to correct transactions in its claims system. Upon completion of
       this audit, additional procedures will be conducted to follow up on these
       differences.

   ¾ Obtained information from ETA on the MOU with SSA that allows SWAs access
     to social security data via ICON. We confirmed that the first two states, Utah and
     Wisconsin, to utilize the process in 2002 incurred $50,000 each in
     implementation costs. In addition, ETA provided us details on the 36 SWAs
     provided funding for the real-time connection with SSA; however, only 15 of
     these SWAs were able to successfully complete the implementation.

This work was conducted in conjunction with the President’s Council on Integrity and
Efficiency as part of the examination of relief efforts in the aftermath of Hurricanes
Katrina and Rita.

Our audit was conducted in accordance with Generally Accepted Government Auditing
Standards for performance audits.

Criteria

   ¾ Identity Theft and Assumption Deterrence Act (Public Law 105-318)


U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs

     ¾ Code of Federal Regulations, Title 20, Section 625.14(a)

     ¾ Social Security Act, Sections 206, 208, 303(a)(1), 1106, 1107, 1137(a)(1),
       1631(d)(2), and 1632

     ¾ Federal Criminal Code, United States Code, Title 18, Sections 201, 205, 208,
       287, 1001, 1028(d), and 1341




26                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                             Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS


DUA                   Disaster Unemployment Assistance

ETA                   Employment and Training Administration

IT                    Information Technology

LDOL                  Louisiana Department of Labor

MOU                   Memorandum of Understanding

OIG                   Office of Inspector General

OLRFI                 Office of Labor Racketeering and Fraud Investigations

SSA                   Social Security Administration

SSDI                  Social Security Death Index

SSN                   Social Security Number

SWA                   State Workforce Agency

UC                    Unemployment Compensation

USDOC                 U.S. Department of Commerce

USDOL                 U.S. Department of Labor




U.S. Department of Labor—Office of Inspector General                                        27
Report Number: 06-07-001-03-315
Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
Unemployment Claims Based on Claimants Using Invalid SSNs




                        THIS PAGE INTENTIONALLY LEFT BLANK




28                                              Department of Labor—Office of Inspector General
                                                               Report Number: 06-07-001-03-315
                              Louisiana May Have Paid at Least $3.7 Million in Hurricane-Related
                                 Unemployment Claims Based on Claimants Using Invalid SSNs

                                                                                APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                         29
Report Number: 06-07-001-03-315
